U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                PUBLIC
               RELEASE


              NATIONAL OCEANIC AND
        ATMOSPHERIC ADMINISTRATION

 NWS’s New Supercomputer Should Be Located
  at Federal Building 4 in Suitland, Maryland

          Audit Report No. STD-10925-8-0001 / September 1998




        Office of Audits, Science and Technology Audits Division
September 30, 1998

MEMORANDUM FOR:               Dr. D. James Baker
                              Under Secretary for Oceans and Atmosphere


FROM:                         Johnnie E. Frazier
                              Acting Inspector General

SUBJECT:                      NWS’s New Supercomputer Should Be Located at Federal
                                  Building 4 in Suitland, MD
                              Final Report No. STD-10925-8-0001/September 1998

The Office of Inspector General has completed its review of NOAA’s proposal to locate a
Class VIII supercomputer at the Goddard Space Flight Center in Greenbelt, Maryland in 1998.
The Goddard site is also where NOAA proposed to build its Operations and Research Center.
NOAA proposed to install the Class VIII into Building No. 28 at Goddard rather than Federal
Building 4 (FB-4), in Suitland, Maryland, where NOAA’s current Class VII supercomputer is
located. NOAA’s cost proposal indicated that it would be less expensive to locate its new Class
VIII at Goddard rather than FB-4.

We found that FB-4 has adequate space and is capable of handling a Class VIII supercomputer,
either liquid cooled or air cooled, if necessary improvements are made to the FB-4 electrical and
cooling systems. While the initial installation costs at FB-4 are higher because of the needed
improvements, Goddard has higher leasing, renovation, and maintenance contract costs.
Consequently, the five-year life cycle costs to install the Class VIII at FB-4 are lower. We found
that FB-4 and Goddard are the only federal sites in the Washington, D.C., area that can currently
accommodate the Class VIII. We also found that although a health and safety issue was raised by
NOAA concerning FB-4, GSA officials determined there would be no asbestos problems
encountered with installing the Class VIII at FB-4. Additionally, NOAA’s timeline for
transitioning to the Class VIII is reasonable.

In its response to our draft report, NOAA concurred with the report’s recommendation to locate
the supercomputer in Federal Building 4 at the Suitland, Maryland complex. However, NOAA
disagreed with the finding on the attendant costs associated with the infrastructure, including
space, asbestos and equipment. NOAA’s response is provided as Attachment 4.

Since NOAA agreed to the principal conclusion of our report to locate the supercomputer at
Federal Building 4, we consider the report recommendation resolved and it is not necessary to
submit an Audit Action Plan.

We appreciate the cooperation and courtesies extended to us by NOAA officials during the audit.
INTRODUCTION

NOAA is responsible for collecting, analyzing, and disseminating data relating to the Earth’s
oceans and atmosphere. NOAA accomplishes its mission through a nationwide system of
laboratories, observatories, and science centers. The largest of these is the National Weather
Service’s (NWS) central computer facility, known as the National Centers for Environmental
Prediction (NCEP), which is located in leased space at FB-4 and in the World Weather Building
(WWB) in Camp Springs, Maryland.

According to NOAA’s strategic plan for the modernization and associated restructuring of NWS,
the outmoded condition of FB-4 constrains NOAA from fulfilling its mission. NOAA officials
have described FB-4 as an aging building with a leaky roof and windows. They believe that its
outdated infrastructure cannot adequately house sensitive automated data processing (ADP)
equipment such as the Class VIII supercomputer. In 1991, NOAA began developing a strategic
plan for a new science center that would relocate NCEP’s FB-4 operations and research functions
into a new building that would be constructed at Goddard. The proposed facility, to be known as
the NOAA Operations and Science Center, has never been funded.

NOAA is currently leasing a Class VII supercomputer (Cray-C90) at the NCEP in FB-4. The
supercomputer, which is used exclusively by NWS and is critical to its mission of protecting life
and property, is about five years old. The lease for the Class VII supercomputer will expire in
February 1999.

NOAA is proposing to upgrade to a Class VIII, the next generation of supercomputers, and has
proposed to install it in Building No. 28 at Goddard. The Class VIII, which will provide NWS
with continuous on-line weather information, can be purchased either as an air cooled or a liquid
cooled system. If NOAA awards a contract by October 1, 1998, it estimates that the Class VIII
supercomputer could be fully operational by August 1999. NOAA told us that the Class VIII has
an estimated life of three years and will need to be replaced with the Class IX about March 2002.

NOAA’s supercomputer proposal was supported by a cost proposal completed on April 30, 1998
(see attachment 1). The proposal indicated that it would cost about $366,000 less to install and
operate the Class VIII at Goddard ($3.121 million) than at FB-4 ($3.487 million) over a five-year
life cycle. NOAA has not yet received funding for the Class VIII and has only approximately
$706,000 to cover the installation costs. NOAA will need approximately $500,000 to $600,000 to
cover the remainder of the installation costs, depending on the system selected.

PURPOSE AND SCOPE OF AUDIT

The purpose of our audit was to review NOAA’s proposal to install the Class VIII supercomputer
at Goddard. We focused primarily on determining the suitability and cost of installing the Class
VIII at FB-4, because this is where NCEP’s central computer operations are located.



                                                 2
We reviewed NOAA’s cost analysis, which compared the costs of installing the Class VIII at
Goddard and FB-4. Our review included re-examining certain costs used in NOAA’s analysis for
space, flooring, communications, electrical protection, and cooling improvements in FB-4. We
also reviewed selected high cost items such as generators, paralleling units, and chillers associated
with installing the Class VIII at Goddard because they made up most of the costs associated with
the Class VIII installation. Our analysis also compared the costs of an air cooled versus a liquid
cooled system.

In addition to reviewing the installation costs, we examined the space and operating requirements
of both alternatives and assessed whether FB-4 provides a safe operating environment for the
supercomputer. We also reviewed the suitability of 10 other sites initially considered by NOAA.
Finally, we evaluated the reasonableness of NOAA’s proposed time line for the transition from a
Class VII to a Class VIII supercomputer.

We interviewed NOAA officials, General Services Administration (GSA) personnel, the
Department’s budget examiner and contracting officer handling the supercomputer acquisition,
and various suppliers of electrical and water chiller equipment, and NOAA space planning
officials. In addition, we visited several supercomputer sites including FB-4, Building No. 28, the
National Institute of Standards and Technology at Gaithersburg, MD, and the Census Bureau’s
Bowie, MD computer center. We conducted our field work from April through May 1998.

We assessed NOAA’s internal controls over its decision process, including the accuracy and
completeness of its management reports, and the extent and nature of its analysis of those reports.
The weaknesses we identified in these controls are discussed on pages 3 and 4.

We did not rely on the limited computer-processed data provided by NOAA in performing the
substantive portions of our audit work. Therefore, we did not assess its reliability.

Tests were not performed to determine if NOAA was in compliance with applicable laws and
regulations. We did not feel there would be any material instances of noncompliance in NOAA’s
preparation of its cost proposal. However, we did find that NOAA did not comply with principles
of good business practice or the Federal Acquisition Regulation (FAR 31.201.2) in determining
whether a cost is allowable, taking into account reasonableness and allocability. NOAA’s
proposed costs that we felt were not reasonable are discussed on pages 3 and 4.

Our review was conducted in accordance with generally accepted government auditing standards
and performed under the authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, dated May 22, 1980, as amended.

NWS’s NEW SUPERCOMPUTER SHOULD BE LOCATED AT FEDERAL BUILDING 4
IN SUITLAND, MD

Our audit found that FB-4 has adequate space and is capable of housing a Class VIII
supercomputer, if modest improvements are made to the electrical and cooling systems. The

                                                  3
improvements would not require the removal of asbestos, as NOAA had earlier thought.
Moreover, it would be less expensive to locate the Class VIII in FB-4 than at Goddard. While the
initial installation costs at FB-4 are higher because of the needed improvements, Goddard has
higher leasing, renovation, and maintenance contract costs that make it the more costly alternative
over the life of the supercomputer. FB-4 and Goddard are the only federal sites in the
Washington, D.C. area that can currently accommodate the Class VIII. In addition, NOAA’s
timeline for transitioning to the Class VIII is reasonable. The transition process consists of the
contract award, delivery, installation, acceptance testing, and a six month conversation period.
This process is estimated to take 11 months from the contract award to having the Class VIII fully
operational. NOAA expects to sign the contract October 1, 1998 and be fully operational by
August 31, 1999.

NOAA’s Proposal Overstated Cost of Locating Computer at FB-4

NOAA’s projections of the costs of locating the Class VIII supercomputer at FB-4 significantly
overstated both the initial installation and life cycle costs involved. Specifically, we found that the
cost analysis in NOAA’s proposal overestimated the costs associated with improving FB-4
because NOAA overstated its requirements in its cost projections, and did not seek competitive
price quotations. NOAA also overestimated the amount of space that would be needed at FB-4.
In total, NOAA overstated the cost of locating the Class VIII at FB-4 by as much as $1.1 million
over the five-year life cycle used in its analysis.

While the adjusted installation costs at FB-4 would still be higher than at Goddard, savings
realized over the five-year life cycle indicate that FB-4 is the more economical alternative. For an
air cooled supercomputer, the installation cost is $609,100 greater at FB-4 than Goddard, but the
five-year life cycle costs are $779,600 lower (see attachment 2). For a liquid cooled
supercomputer, the installation cost is $515,100 greater at FB-4 than Goddard, but the five-year
life cycle costs are $715,600 lower (see attachment 3). The installation costs are greater at FB-4
than Goddard because NOAA needs to install equipment such as emergency backup generators, a
paralleling unit, and an uninterrupted power supply system that FB-4 is lacking. Installation and
life cycle costs are discussed below.

Installation Costs:

The cost to install the Class VIII liquid cooled supercomputer in FB-4 is $625,000 lower than
what NOAA estimated ($1.8 million) in its cost proposal. The $625,000 represents the difference
between the OIG and NOAA’s estimate for a liquid cooled system. After reviewing significant
estimated costs used by NOAA for ADP space (rent), flooring, electrical, and cooling, we found
that NOAA’s projections were flawed in several important respects:

l      NOAA assumed that it would need to replace 8,315 sq. ft. of raised-floor space in Room
       1300 at a cost of $94,200. This represents over 54 percent of the total 15,432 square feet
       of raised-floor space NOAA is currently leasing. This space was used in the past to
       accommodate two computers and is now empty. The space is not needed to operate the
       Class VIII. Currently, the Class VII supercomputer and two other computers are in the

                                                   4
       remaining space which totals 7,027 square feet. An inspection of the raised-floor tiles,
       confirmed by GSA, indicates that, except for a few chipped tiles, the floor does not need
       to be replaced. Since a new raised floor is not needed, we eliminated this cost from our
       analysis (see attachments 2 and 3).

l      The estimated cost of NOAA’s electrical upgrades was too high because NOAA failed to
       obtain competitive price quotes as a basis for its projections. We made inquiries with one
       vendor that offers GSA up to 40% discount on generators and paralleling units. The
       vendor provided us with the quote in writing. NOAA will need to install one or two
       emergency backup generators to protect the Class VIII in case of a loss of electrical
       power or “brownout” at Suitland. (The number of generators needed will depend on the
       type of Class VIII supercomputer selected.) We were able to obtain lower price quotes
       than NOAA on the same type of generator (750KW) and paralleling unit (digital) by
       seeking several price quotations. Savings from competitive pricing totaled between
       $200,000 and $294,000 (see attachments 2 and 3).

l      Projected cooling system costs were also overstated. NOAA officials included two new
       emergency backup chillers (105 tons) at a cost of $362,000 because they believe they need
       a degree of reliability higher than the three existing units provide to supplement the three
       existing emergency backup chillers (100 tons). We determined that the existing three
       chillers are operational with a useful life of five additional years. We obtained a price
       quotation of $125,000, which included installation (see attachments 2 and 3) for two 110-
       ton chillers by calling a GSA supplier. This will give NOAA two emergency backup chiller
       systems for its Class VIII supercomputer.

l      NOAA’s proposal did not account for significant differences between the cost of installing
       an air cooled system versus a liquid cooled system. NOAA used a liquid cooled system in
       its cost proposal which was the most expensive of the two systems in life cycle costs. The
       liquid cooled system costs approximately $100,000 less to install than the air cooled
       system. Either system is acceptable to meet NOAA’s requirements. We prepared separate
       cost projections for each system (see attachments 2 and 3).

Life Cycle Costs:

NOAA overstated the amount of space needed at FB-4 to accommodate the Class VIII thereby
adding $614,700 in rent to the total life cycle cost. NOAA’s projections assumed that the
computer would require 15,342 sq. ft. at FB-4 (the same amount currently being leased), but
assumed only 8,900 sq. ft. at Goddard. The total life cycle costs of occupying FB-4, including
installation, were overstated by as much as $1.1 million, based on excessive space planned at
FB-4.

Room 1300 at FB-4 currently holds the Class VII supercomputer in 3,202 sq. ft. and two
additional computers (J-916s) in 3,670 sq. ft. According to NOAA, the two J-916s will be
eliminated when the Class VIII becomes operational, decreasing by 3,670 sq. ft. the amount of
space needed. At our request, GSA evaluated the utilization of Room 1300 and found that over

                                                5
7,134 sq. ft. was not being used. We reduced the rent costs claimed by NOAA in its cost
proposal by $614,700 to correspond to a 7,671 sq. ft. reduction in ADP space from the 15,342
sq. ft. claimed. The space reduction is based on the assumption that the Class VIII would be fully
operational by February 28, 1999. These costs could vary depending on the Class VIII operational
date (see attachments 2 and 3). After adjusting for the reduced amount of space, our analysis
indicates that the cost of space would be $454,000 less at FB-4 than at Goddard.

Other operating costs at Goddard make it more expensive to occupy over time than FB-4. Some
of these post-installation operating expenses include electrical protection, telephone service,
equipment maintenance, communications, and building renovation costs. Communications
expenses at Goddard total almost $1.3 million, $712,000 more than at FB-4. These operating
expenses are projected to be higher at Goddard in NOAA’s analysis as well as ours. NOAA’s
analysis also suggests that operating expenses at Goddard, after installation, are $774,000 higher
than FB-4.

FB-4 Can Adequately House a Class VIII Supercomputer

FB-4 has the necessary space and infrastructure to accommodate the Class VIII supercomputer if
the electrical and cooling systems are upgraded as described in this report. NOAA determined
that the Class VIII will require 8,900 sq. ft. of space, well within the capacity of FB-4. Although
NOAA has expressed several concerns about the condition of FB-4, we found in each case that
the problems were overstated or could be addressed at a reasonable cost.

As part of our review, we evaluated the condition of transformer vaults and switchgears that
service NOAA’s computers in Room 1300. Under GSA’s preventive maintenance program, all
the transformer vaults and switchgears have been replaced within the past 10 years at a cost of
$817,000. The useful life of the transformer vaults and switchgears is approximately 30 years.
GSA provided us with a letter of integrity attesting to the maintenance performed on the units and
their good condition. Also, GSA recently spent $300,000 to have two chiller motors (4,000
tons) rebuilt in the main power plant in Suitland.

NOAA was also concerned that the installation of the new supercomputer at FB-4 would be
complicated by the presence of asbestos in Room 1300. Specifically, NOAA believed that the
asbestos might have to be removed in order to install new cables for the Class VIII. To determine
whether asbestos abatement would be necessary, GSA had an industrial hygienist inspect Room
1300. Based on NOAA’s requirements to remove old cables and install new cables for the Class
VIII, the hygienist felt asbestos abatement would not be necessary. GSA has provided us with a
letter certifying that the installation of new electrical cables for the Class VIII would not create an
asbestos abatement problem.

As previously mentioned, NOAA believed that 8,315 sq. ft. of raised flooring in Room 1300
should be replaced. Two inspections of the raised flooring were made by GSA representatives in
the presence of representatives from NOAA. GSA determined that the raised-floor framing
simply needed to be tightened and only a few tiles replaced.


                                                  6
Availability of Other Sites Is Limited

The number of sites available to house a Class VIII supercomputer in the Washington, D.C., area
is very limited. Initially NOAA sought GSA’s help in developing a list of appropriate
supercomputer sites in the area. However, NOAA decided to generate its own list because
GSA’s listing did not differentiate between ADP, office, or warehouse space. NOAA
subsequently identified 12 possible federal supercomputer sites including FB-4, Goddard, the
National Institute of Standards and Technology, the Cancer Institute, the Army Research
Laboratory, the Naval Research Laboratory, the Army Space and Missile Command, the Census
Bureau’s Bowie computer center, the Internal Revenue Service, the Social Security
Administration, Silver Spring Metro Center 1, and FB-3. After determining that a site for the
Class VIII must have at least 8,900 sq. ft., chilled water, and Uninterrupted Power Supply (UPS),
all but the Goddard and FB-4 sites were eliminated.

We evaluated the same 12 sites and also found that only FB-4 and Goddard could accommodate
the Class VIII. We confirmed that at this time there is not sufficient available space at any of the
other 10 potential sites without significant modifications. However, the Census Bureau’s Bowie
computer center is a state-of-the-art computer facility with over 8,000 sq. ft. that could house the
next generation of Class IX supercomputers in 2001. NOAA plans to make the transition from
the Class VIII to Class IX supercomputer at the same time this space becomes available, and said
that it would consider the Bowie site in the future.

CONCLUSION

NOAA’s comparison of the costs of locating its Class VIII supercomputer at the Goddard Space
Flight Center versus Federal Building 4 is flawed because it overestimates the total life cycle costs
of the FB-4 site by as much as $1.1 million. Although its proposal suggests that Goddard would
be less expensive, we estimate that NOAA could save approximately $780,000 over five years by
locating the supercomputer at FB-4. Moreover, FB-4 has adequate space and infrastructure to
house the supercomputer once upgrades are made to the electrical and cooling systems. We
found no evidence that the electrical upgrades will necessitate the removal of asbestos, as NOAA
originally thought. In light of the limited number of suitable supercomputer sites in the
Washington area, NOAA management should make immediate preparations for the installation of
the Class VIII at FB-4.

RECOMMENDATION

We recommend that the Undersecretary for Oceans and Atmosphere undertake all actions
necessary to initiate installation of the Class VIII supercomputer in FB-4.

NOAA RESPONSE

In response to our draft audit report, NOAA concurred with the report’s recommendation to
locate the Class VIII supercomputer at the Suitland, MD complex. However, NOAA did not
agree with the attendant findings on costs associated with the infrastructure, including space,

                                                  7
asbestos and equipment. NOAA also believes that our report discounted the possible significant
impact on the provision of forecast guidance projects to field offices. According to NOAA, these
projects are relied upon for development of local forecasts across the nation. While NOAA stated
that these forecast issues were germane to the effective operation of the supercomputer, NOAA
indicated they do not affect the conclusion to locate the supercomputer in the Suitland Complex.

NOAA also stated that it has engaged the General Services Administration in discussions to
ensure adequate facility support for the continuous operation of the supercomputer. These
discussions will be finalized in a Memorandum of Understanding.

OIG COMMENTS

We commend NOAA on its decision to locate the Class VIII supercomputer in the Suitland, MD
complex and believe that it is a prudent decision.

With regard to NOAA not agreeing with the attendant findings on costs associated with the
infrastructure, including space, asbestos, and equipment, we reaffirm our position. NOAA has
provided no details in its response that would cause us to change our position on any of the
findings related to these areas or the numbers in our cost analysis.

With regard to the OIG discounting the possible significant impact of forecast guidance products
to field offices, we offer the following comments. At no time during the course of the review did
NOAA raise this issue. Also, NOAA provided no details or analysis in its response on this matter
and stated that this issue does not affect the location of the supercomputer.

Finally, we commend NOAA for engaging GSA at this time to ensure that the supercomputer will
be in a continuous safe operation.




                                                8
